 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL

  MOST OF THE COSTS CLAIMED BY
     IOWA STATE UNIVERSITY
 UNDER AMERICAN RECOVERY AND
   REINVESTMENT ACT OF 2009
GRANT NUMBERS 1RC2DA028879-01
     AND 5RC2DA028879-02
       WERE ALLOWABLE
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                  Patrick J. Cogley
                                              Regional Inspector General

                                                       April 2013
                                                     A-07-11-06024
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH
Institutes and Centers and to the Common Fund. In addition, the Recovery Act provided
$400 million for comparative effectiveness research.

Recovery Act Awards to Iowa State University

Iowa State University (the grantee), founded in 1858, is a land grant research institution located
in Ames, Iowa. NIH awarded the grantee two related Recovery Act grants (an original and a
subsequent award) totaling $2.7 million for research to address the lack, across public education
systems, of a well-integrated infrastructure to support a delivery system designed to reduce risky
youth behaviors, enhance positive youth development, and strengthen families. The original
grant period was September 30, 2009, through August 31, 2011; the grantee has since received a
third-year, no-cost extension, and consequently has not spent all of the grant funds. As of
August 31, 2011, the grantee had claimed $1,673,593 under the NIH grants.

Service Centers at the Grantee Level: Specialized Service Facilities and Recharge Centers

A service center is a business unit within the grantee that can provide goods and/or services
either to other entities within the grantee organization or to external customers. Fees are charged
for those goods and/or services and can be provided on either a one-time or a recurring basis.
Service centers at universities can provide a multitude of goods and/or services solely to
elements within the institution, either to or in support of sponsored projects or external
customers.

Two types of service centers at universities are “specialized service facilities” and “recharge
centers.” Specialized service facilities are service centers with annual budgets generally greater
than $1,000,000. They provide highly complex or specialized services involving such equipment
as wind tunnels, reactors, and electron microscopes. Recharge centers are another type of
service center, but with annual budgets generally under $1,000,000. They are not considered
specialized because their services and the equipment they use are not highly complex. Recharge
centers provide such services as photocopying and laboratory glass-washing.

At the time of our review, the grantee had over 700 service centers in operation and charged the
costs from two service centers to the NIH grants we reviewed.




                                                 i
OBJECTIVE

Our objective was to determine whether costs claimed by the grantee were allowable under
applicable Federal regulations and the terms of the grants.

SUMMARY OF FINDINGS

Most of the costs claimed by the grantee were allowable under applicable Federal regulations
and the terms of the grants. However, certain costs claimed by the grantee that involved service
centers and that totaled $3,487 were not allowable. Specifically:

   •   The grantee claimed $2,535 in unallowable direct and indirect costs associated with 18
       hours of employee time for which the grantee could provide no supporting documentation
       and for which the grantee made an error in calculations. The grantee adjusted the $2,535
       during our fieldwork.

   •   The grantee also claimed $952 in unallowable direct and indirect costs associated with 38
       hours of employee time that were dedicated to training and administrative functions.
       Because employee hours dedicated to these functions are generally unallowable as direct
       costs, the grantee incorrectly billed for $643 in direct costs as well as associated indirect
       costs of $309 which were also incorrectly charged and claimed.

We are setting aside, for adjudication by NIH, costs totaling $118,357 for which we are unable to
reach a conclusion because some of the data that we required to determine the indirect cost rates
for the two service centers involved forecasted and actual costs that were outside our audit
period.

The grantee claimed unallowable costs and incorrectly calculated its rate adjustments because it
did not have effective oversight to ensure compliance with Federal requirements. Furthermore,
the grantee did not have a formal written policy describing the guidelines that it used to
differentiate its service center types.

RECOMMENDATIONS

We recommend that NIH:

   •   require the grantee to refund $952 in unallowable costs related to NIH grants
       1RC2DA028879-01 and 5RC2DA028879-02;

   •   require the grantee to develop and implement internal controls designed to ensure that the
       calculation of service center indirect cost rates is in accordance with Federal
       requirements;

   •   work with the U.S. Department of Health and Human Services, Division of Cost
       Allocation (DCA), and the grantee to determine both service centers’ correct indirect cost



                                                 ii
       rates for the grantee’s 2010 and 2011 fiscal years and resolve the allowability of
       $118,357; and

   •   ensure that the grantee develops and implements a formal written policy that
       differentiates service center types.

GRANTEE COMMENTS

In written comments on our draft report, the grantee described corrective actions that it
implemented or planned to implement in response to three of our four recommendations.

Regarding the $952 in unallowable costs described in our first recommendation, the grantee
stated that it had removed $18 from the costs charged to the grant but added that the remaining
$934 should have been allowable because of NIH budget approval for training in specialized
coding.

Our draft report to the grantee also included a finding and associated monetary recommendation
regarding $4,328 in salary and wage costs. The grantee said that the $4,328 should not have
been a finding and added that it was the result of inadvertent errors made by one service center
when trying to improve the formatting of the spreadsheet before it was sent to us.

OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS

After reviewing the grantee’s comments, we removed our finding regarding the $4,328 in salary
and wage costs and modified the associated (first) recommendations. We maintain that our other
findings and recommendations remain valid.

Regarding the $952 in direct and indirect costs associated with training and administrative hours
that we questioned, we note that when grants are categorized as major projects, cost principles (2
CFR pt. 220, Appendix A) may permit the relevant grantees to classify their training hours as
direct costs. However, neither of the two grants whose claimed costs we reviewed in this audit
was a major project; therefore, it was not appropriate for the grantee to classify training hours as
direct costs. Further, the spreadsheet that the grantee provided to us in July 2011 classified the
hours and associated costs for this service center’s 6 coders as 100 percent indirect costs and also
as 100 percent direct costs. Thus, the grantee did not exercise “special care [to] ensure that costs
incurred for the same purpose in like circumstances are treated consistently as either direct or
F&A [facilities and administrative] costs” as mandated by 2 CFR pt. 220, Appendix A.
Additionally, the grant proposal did not explain how coder training on these grants was not a like
circumstance when compared to coder training for other sponsored projects. Although these
training costs were contained within an approved grant proposal, approval of that proposal did
not relieve the grantee from ensuring that costs charged to the Federal government were
allowable.




                                                 iii
NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with our fourth recommendation but did
not concur with our first three recommendations. With respect to our first recommendation, NIH
stated that it regarded the $952 in costs we had questioned as “… reasonable, allocable, and
allowable as a direct cost of doing research within the scope of this particular project.” For our
second and third recommendations, NIH said that the calculation of indirect cost rates and
ensuring the accuracy of these cost rates fall under the purview and responsibility of DCA.

OFFICE OF INSPECTOR GENERAL RESPONSE TO
NATIONAL INSTITUTES OF HEALTH COMMENTS

After reviewing NIH’s comments, we modified our third recommendation but otherwise
maintain that all of our findings and recommendations remain valid.

Regarding the $952 in direct and indirect costs associated with training and administrative hours
that we questioned, we note that, as stated above, the grantee treated the costs as 100 percent
indirect costs and also as 100 percent direct costs, which did not constitute a reasonable,
allocable, and allowable expenditure of public funds. Thus, the grantee did not exercise “special
care [to] ensure that costs incurred for the same purpose in like circumstances are treated
consistently as either direct or F&A costs” as mandated by 2 CFR pt. 220.

Regarding our second and third recommendations, our finding (the costs totaling $118,357 that
we set aside) pointed out that the grantee adjusted the two service centers’ indirect cost rates
using a methodology that did not conform to either Federal cost principles (2 CFR pt. 220) or the
grantee’s own policies and procedures. We acknowledge DCA’s role in the calculation of
indirect cost rates. NIH has ultimate responsibility, though, to determine the allowability of
grant costs and to ensure that claimed costs for which it is the cognizant Federal agency comply
with applicable rules and regulations. We note, too, that the grantee described corrective actions
that it implemented or planned to implement in response to these two recommendations. With
these facts in mind, we continue to recommend that NIH require the grantee to develop and
implement internal controls designed to ensure that the calculation of service center indirect cost
rates is in accordance with Federal requirements. We modified our third recommendation to
state that NIH should work with both DCA and the grantee to determine both service centers’
correct indirect cost rates for the grantee’s 2010 and 2011 fiscal years and resolve the
allowability of the $118,357.




                                                iv
                                                   TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         American Recovery and Reinvestment Act of 2009......................................................1
         Federal Requirements for National Institutes of Health Grantees ................................1
         Recovery Act Awards to Iowa State University ............................................................1
         Service Centers at the Grantee Level: Specialized Service Facilities
            and Recharge Centers ...............................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2
         Objective ........................................................................................................................2
         Scope ..............................................................................................................................2
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      UNALLOWABLE COSTS ...................................................................................................4
         Federal Requirements ....................................................................................................4
         Undocumented Employee Time and a Timecard Error .................................................5
         Incorrectly Billed Training and Administrative Hours ..................................................5

      POTENTIALLY UNALLOWABLE COSTS .......................................................................6
         Federal Requirements and Grantee Policy Guidelines ..................................................6
         Methodology for Service Center Rate Adjustments ......................................................6
         Potentially Incorrect Rate Adjustments .........................................................................7

      SERVICE CENTER TYPES NOT DIFFERENTIATED .....................................................7
         Federal Requirements ....................................................................................................7
         Potential for Inadequate Monitoring of Service Centers ...............................................7

      LACK OF OVERSIGHT AND FORMAL WRITTEN POLICY .........................................8

      RECOMMENDATIONS ......................................................................................................8

      GRANTEE COMMENTS ....................................................................................................8

      OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS...........9

      NATIONAL INSTITUTES OF HEALTH COMMENTS ...................................................9

      OFFICE OF INSPECTOR GENERAL RESPONSE
        TO NATIONAL INSTITUTES OF HEALTH COMMENTS .......................................10



                                                                      v
APPENDIXES

   A: GRANTEE COMMENTS

   B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                               vi
                                           INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of the Director of the National
Institutes of Health (NIH) to help stimulate the economy through the support and advancement
of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH
Institutes and Centers and to the Common Fund. In addition, the Recovery Act provided
$400 million for comparative effectiveness research.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally to individuals.

Federal Requirements for National Institutes of Health Grantees

Federal regulations at 45 CFR part 74 provide the uniform administrative requirements for
awards and subawards to institutions of higher education and other nonprofit and commercial
organizations. Pursuant to 45 CFR § 74.27, the allowability of costs incurred by institutions of
higher education are determined in accordance with the cost principles contained in 2 CFR
pt. 220 (Office of Management and Budget (OMB) Circular A-21), Cost Principles for
Educational Institutions.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (Grants Policy Statement). The Grants Policy Statement provides NIH grantees, in a
single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information and application information
and specifies the terms and conditions, applicable to particular types of grants, grantees, and
activities, that differ from, supplement, or elaborate on the standard terms and conditions.

Recovery Act Awards to Iowa State University

Iowa State University (the grantee), founded in 1858, is a land grant research institution located
in Ames, Iowa. NIH awarded the grantee two related Recovery Act grants (an original and a
subsequent award) totaling $2.7 million for research to address the lack, across public education
systems, of a well-integrated infrastructure to support a delivery system 1 designed to reduce
risky youth behaviors, enhance positive youth development, and strengthen families. The
original grant period was September 30, 2009, through August 31, 2011; the grantee has since

1
  This delivery system is referred to as the PROSPER—Promoting School-Community-University Partnerships to
Enhance Resilience—partnership model. It is designed to deliver tested and proven programs via management
teams and program coordinators, who provide technical assistance to community teams. These teams, in turn,
deliver programs to their community youth and their families.



                                                     1
received a third-year, no-cost extension, and consequently has not spent all of the grant funds.
As of August 31, 2011, the grantee had claimed $1,673,593 under the NIH grants.

Service Centers at the Grantee Level: Specialized Service Facilities
and Recharge Centers

A service center is a business unit within the grantee that can provide goods and/or services
either to other entities within the grantee organization or to external customers. Fees are charged
for those goods and/or services and can be provided on either a one-time or a recurring basis.
Service centers at universities can provide a multitude of goods and/or services solely to
elements within the institution, either to or in support of sponsored projects or external
customers.

Two types of service centers at universities are “specialized service facilities” and “recharge
centers.” 2 Specialized service facilities are service centers with annual budgets generally greater
than $1,000,000. 3 They provide highly complex or specialized services involving such
equipment as wind tunnels, reactors, and electron microscopes. Recharge centers are another
type of service center, but with annual budgets generally under $1,000,000. 4 They are not
considered specialized because their services and the equipment they use are not highly complex.
Recharge centers provide such services as photocopying and laboratory glass-washing.

At the time of our review, the grantee had over 700 service centers in operation and charged the
costs from two service centers to the NIH grants we reviewed.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under
applicable Federal regulations and the terms of the grants.

Scope

We limited our review to costs the grantee claimed for the grant period of September 30, 2009,
through August 31, 2011, for NIH grants 1RC2DA028879-01 and 5RC2DA028879-02. For the


2
 Section 3.2.0 of the OMB Cost Accounting Standard Board (CASB) Disclosure Statement Form, CASB DS-2,
defines service centers as including recharge centers and specialized service facilities.
3
  For an example of a Federal benchmark that uses the $1,000,000 threshold, see the U.S. Department of Health and
Human Services (HHS), Division of Cost Allocation (DCA), website, Frequently Asked Questions,
http://rates.psc.gov/fms/dca/faq-cu.pdf (accessed October 26, 2012). In addition, see guidelines published by NIH in
the Frequently Asked Questions section of http://grants.nih.gov/grants/guide/notice-files/NOT-OD-10-138.html
(accessed October 26, 2012). There is no Federal requirement specifying a particular dollar threshold; each
University sets its own threshold.

4
    See footnote 3.


                                                         2
grant period, the grantee claimed a total of $1,673,593 in direct and indirect costs. We reviewed
$1,493,199 of those costs as of August 31, 2011.

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to obtaining an understanding of
internal control as it related to our specific audit objective.

We performed fieldwork at the grantee’s administrative office in Ames, Iowa.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal laws, regulations, and other guidance;

    •    reviewed grant announcements, grant applications, and notices of grant award;

    •    interviewed grantee officials to gain an understanding of the grantee’s accounting system
         and internal controls for claiming costs under the NIH grants;

    •    identified expended funds in the grantee’s accounting records as of August 31, 2011;

    •    summarized costs by cost category from expenditure reports;

    •    recalculated amounts on the August 31, 2011, expenditure report to verify mathematical
         accuracy;

    •    compared forecasted to actual expenditures;

    •    reviewed judgmentally selected costs 5 claimed under the grants for allowability,
         allocability, and reasonableness; and

    •    discussed the results of our review with grantee officials on January 18, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




5
 Ninety percent of the grantee’s claimed costs were in two categories: salaries (including fringe benefits) and
consultant fees. We tested 96 percent of the claimed costs for those two categories. We also tested the highest
dollar transactions of the remaining 10 percent of the grantee’s claimed costs.


                                                         3
                          FINDINGS AND RECOMMENDATIONS

Most of the costs claimed by the grantee were allowable under applicable Federal regulations
and the terms of the grants. However, certain costs claimed by the grantee that involved service
centers and that totaled $3,487 were not allowable. Specifically:

   •   The grantee claimed $2,535 in unallowable direct and indirect costs associated with 18
       hours of employee time for which the grantee could provide no supporting documentation
       and for which the grantee made an error in calculations. The grantee adjusted the $2,535
       during our fieldwork.

   •   The grantee also claimed $952 in unallowable direct and indirect costs associated with 38
       hours of employee time that were dedicated to training and administrative functions.
       Because employee hours dedicated to these functions are generally unallowable as direct
       costs, the grantee incorrectly billed for $643 in direct costs as well as associated indirect
       costs of $309 which were also incorrectly charged and claimed.

We are setting aside, for adjudication by NIH, costs totaling $118,357 for which we are unable to
reach a conclusion because some of the data that we required to determine the indirect cost rates
for the two service centers involved forecasted and actual costs that were outside our audit
period.

The grantee claimed unallowable costs and incorrectly calculated its rate adjustments because it
did not have effective oversight to ensure compliance with Federal requirements. Furthermore,
the grantee did not have a formal written policy describing the guidelines that it used to
differentiate its service center types.

UNALLOWABLE COSTS

Federal Requirements

2 CFR pt. 220, Appendix A, section A.2.e, states: “[T]he accounting practices of individual
colleges and universities must support the accumulation of costs as required by the [cost
accounting] principles, and must provide for adequate documentation to support costs charged to
sponsored agreements.”

2 CFR pt. 220, Appendix A, section B.4, states:

       Facilities and administrative (F&A) costs, for the purpose of this Appendix,
       means costs that are incurred for common or joint objectives and, therefore,
       cannot be identified readily and specifically with a particular sponsored project,
       an instructional activity, or any other institutional activity. F&A costs are
       synonymous with “indirect” costs ….




                                                  4
2 CFR pt. 220, Appendix A, section C.2, states:

       The tests of allowability of costs under these principles are: they must be
       reasonable; they must be allocable to sponsored agreements under the principles
       and methods provided herein; they must be given consistent treatment through
       application of those generally accepted accounting principles appropriate to the
       circumstances; and they must conform to any limitations or exclusions set forth in
       these principles or in the sponsored agreement as to types or amounts of cost
       items.

Undocumented Employee Time and a Timecard Error

The grantee claimed unallowable direct and indirect costs of $2,535 associated with 18 hours of
employee time. Specifically:

   •   One service center billed the grantee for 10 hours of employee time for which the grantee
       could provide no supporting documentation. The grantee consequently claimed
       unallowable direct costs of $1,185 and related indirect costs of $569, for a total of
       $1,754.

   •   A second service center billed the grantee for 8 hours of employee time that the center
       had added incorrectly on a timesheet. The grantee consequently claimed unallowable
       direct costs of $528 and related indirect costs of $253, for a total of $781.

After we discussed these matters with grantee official, the grantee reduced claimed costs by
$2,535 on its Sponsored Program Financial Reports, respectively dated October 31, 2011, and
January 31, 2012.

Incorrectly Billed Training and Administrative Hours

Employment training provided to employees and employee time spent performing administrative
tasks in the course of normal workplace operations are usually classified as F&A costs and
therefore are generally not allowable direct costs. The grantee claimed unallowable costs
totaling $952 in direct and indirect costs associated with 38 hours of employee time, billed on
two invoices by one service center, that were dedicated to training and administrative functions.
Because employee hours dedicated to these functions are generally unallowable as direct costs,
the grantee incorrectly billed for $643 in direct costs as well as associated indirect costs of $309
which were also incorrectly charged and claimed.




                                                  5
POTENTIALLY UNALLOWABLE COSTS

Federal Requirements and Grantee Policy Guidelines

2 CFR pt. 220, Appendix A, section D.2, states:

       The cost of materials supplied from stock or services rendered by specialized
       facilities or other institutional service operations may be included as direct costs
       of sponsored agreements, provided such items are consistently treated, in like
       circumstances, by the institution as direct rather than F&A costs, and are charged
       under a recognized method of computing actual costs, and conform to generally
       accepted cost accounting practices consistently followed by the institution.

2 CFR pt. 220, Appendix A, section J.47.b, states:

       The costs of such services, when material, must be charged directly to applicable
       awards based on actual usage of the services on the basis of a schedule of rates or
       established methodology that: ….

       (2) Is designed to recover only the aggregate costs of the services. The costs of
       each service shall consist normally of both its direct costs and its allocable share
       of all F&A costs. Rates shall be adjusted at least biennially, and shall take into
       consideration over/under applied costs of the previous period(s).

(In the context of this report, the term “over/under applied costs” generally refers to the
difference, as identified by a grantee’s application of generally accepted cost accounting
practices, between a service center’s forecasted operating costs and its actual operating costs.)

Grantee Policy Guidance, Periodic Rate Review and Adjustment (ISU Financial Accounting and
Reporting) states: “… 2. Rates must be reviewed annually at the end of each fiscal year or
operating year. 3. Compare actual annual costs and actual units per year to your projections in
your rate formula.”

Methodology for Service Center Rate Adjustments

Federal regulations (45 CFR part 74) state that, with the exception of certain specialized
programs, “… no HHS funds may be paid as profit to any recipient even if the recipient is a
commercial organization.” Accordingly, a service center that charges costs to federally
sponsored projects is to operate on a revenue-neutral (break-even) basis. At the start of the
grantee’s fiscal year (FY), a service center should determine the indirect cost (that is, F&A) rate
it will charge based upon its ratio of forecasted indirect operating costs to forecasted direct
operating costs. A service center will multiply that rate, which is a percentage, by the direct cost
of a service or an item it provided to a customer in order to recoup its indirect cost expenses. At
the end of the grantee’s FY, the service center should then systematically evaluate its actual
operating costs against its forecasted operating costs; any difference between the two will result
in either a deficit or a surplus. At the start of the next FY, the service center should then adjust



                                                  6
its indirect cost rate for the new FY to take into account either the deficit or the surplus it had
from its previous FY. This adjustment is referred to as a rate adjustment.

Potentially Incorrect Rate Adjustments

Contrary to the cost principles in 2 CFR pt. 220, Appendix A, and the grantee’s own policies and
procedures, the grantee incorrectly adjusted these two service centers’ indirect cost (F&A) rates
for its FYs 2010 and 2011. Rather than making its rate adjustment on the basis of the difference
between all actual annual operating costs for the FY (which include payroll) and a forecast of
those operating costs—which is what the CFR and the grantee’s written policies specify—the
grantee inappropriately applied fringe benefits liabilities to make rate adjustments to the
forecasted operating costs.

Additionally, under the provisions of the Grantee Policy Guidance, Periodic Rate Review and
Adjustment (ISU Financial Accounting and Reporting), the grantee should have evaluated the
forecasted costs against the actual costs of both service centers for its 2009 FY. The grantee
should then have taken into account either the surpluses or the deficits from that evaluation to
adjust the FY 2010 indirect cost rates for each service center. Because the grantee’s 2009 FY
was outside of our audit period, we were unable to determine the appropriate FY 2010 indirect
cost rates for the two service centers. Therefore we are setting aside, for adjudication by NIH,
costs totaling $118,357 ($79,971 in direct costs and $38,386 in indirect costs).

SERVICE CENTER TYPES NOT DIFFERENTIATED

Federal Requirements

2 CFR pt. 220, Appendix A, section J.47.a, states: “The costs of services provided by highly
complex or specialized facilities operated by the institution, such as computers, wind tunnels,
and reactors are allowable …” so long as certain specified conditions are met.

45 CFR Subtitle A, pt. 74, Subpart C, section 74.21.(b), states: “Recipients’ financial
management systems shall provide for the following: …. (6) Written procedures for determining
the reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award.”

NIH’s Grants Policy Statement, Part II, Subpart A, chapter 8, section 8.3, states: “NIH seeks to
foster within grantee organizations an organizational culture that is committed to compliance,
leading to both exemplary research and exemplary supporting systems and use of resources to
underpin that research. Actions to achieve this result should include … written policies and
procedures ….”

Potential for Inadequate Monitoring of Service Centers

DCA (see footnote 3) is a cognizant Federal agency for reviewing and negotiating F&A costs
and other rates charged to Federal programs by grantees. According to the criteria cited above,
universities must have written policies that differentiate their service center types, such as



                                                   7
specialized service facilities and recharge centers, for cost accounting purposes. DCA evaluates
the adequacy of these university policies. Although the grantee had policies and procedures that
dealt with service center billing rates, it did not have a formal written policy that differentiated
specialized service facilities from recharge centers.

The grantee’s lack of a formal written policy to differentiate types of service centers raises the
risk that the grantee’s service centers may charge indirect and direct costs to federally sponsored
grants and contracts not in accordance with applicable Federal cost principles.

LACK OF OVERSIGHT AND FORMAL WRITTEN POLICY

The grantee claimed unallowable costs and incorrectly calculated its rate adjustments because it
did not have effective oversight to ensure compliance with Federal requirements. Furthermore,
the grantee did not have a formal written policy describing the guidelines that it used to
differentiate its service center types.

RECOMMENDATIONS

We recommend that NIH:

   •   require the grantee to refund $952 in unallowable costs related to NIH grants
       1RC2DA028879-01 and 5RC2DA028879-02;

   •   require the grantee to develop and implement internal controls designed to ensure that the
       calculation of service center indirect cost rates is in accordance with Federal
       requirements;

   •   work with DCA and the grantee to determine both service centers’ correct indirect cost
       rates for the grantee’s 2010 and 2011 FYs and resolve the allowability of $118,357; and

   •   ensure that the grantee develops and implements a formal written policy that
       differentiates service center types.

GRANTEE COMMENTS

In written comments on our draft report, the grantee described corrective actions that it
implemented or planned to implement in response to our second, third, and fourth
recommendations.

Regarding the $952 in unallowable costs described in our first recommendation, the grantee
stated that it had removed $18 from the costs charged to the grant but added that the remaining
$934 should have been allowable because of NIH budget approval for training in specialized
coding.

Our draft report to the grantee also included a finding and associated monetary recommendation
regarding $4,328 in salary and wage costs. The grantee said that the $4,328 should not have


                                                 8
been a finding and added that it was the result of inadvertent errors made by one service center
when trying to improve the formatting of the spreadsheet before it was sent to us.

The grantee’s comments, excluding 24 pages of attachments which contain personally
identifiable information, are included as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS

After reviewing the grantee’s comments, we removed our finding regarding the $4,328 in salary
and wage costs and modified the associated (first) recommendation. We maintain that our other
findings and recommendations remain valid.

Regarding the $952 in direct and indirect costs associated with training and administrative hours
that we questioned, we note that when grants are categorized as major projects, cost principles
may permit the relevant grantees to classify their training hours as direct costs. 6 However,
neither of the two grants whose claimed costs we reviewed in this audit was a major project;
therefore, it was not appropriate for the grantee to classify training hours as direct costs. Further,
the spreadsheet that the grantee provided to us in July 2011 classified the hours and associated
costs for this service center’s 6 coders as 100 percent indirect costs and also as 100 percent direct
costs. Thus, the grantee did not exercise “special care [to] ensure that costs incurred for the same
purpose in like circumstances are treated consistently as either direct or F&A costs” as mandated
by 2 CFR pt. 220, Appendix A. Additionally, the grant proposal did not explain how coder
training on these grants was not a like circumstance when compared to coder training for other
sponsored projects. 7 Although these training costs were contained within an approved grant
proposal, approval of that proposal did not relieve the grantee from ensuring that costs charged to
the Federal government were allowable.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH concurred with our fourth recommendation but did
not concur with our first three recommendations. With respect to our first recommendation, NIH
stated that it regarded the $952 in costs we had questioned as “… reasonable, allocable, and
allowable as a direct cost of doing research within the scope of this particular project.” For our


6
  2 CFR pt. 220, Appendix A, section F.6.b.(2), states that a “‘[m]ajor project’ is defined as a project that requires an
extensive amount of administrative or clerical support, which is significantly greater than the routine level of such
services provided by academic departments.”
7
  2 CFR pt. 220, Appendix A, section C.11.a, states: “All costs incurred for the same purpose, in like
circumstances, are either direct costs only or F&A costs [i.e. indirect costs] only with respect to final cost
objectives. No final cost objective shall have allocated to it as a cost any cost, if other costs incurred for the
same purpose, in like circumstances, have been included as a direct cost of that or any other final cost
objective. Further, no final cost objective shall have allocated to it as a direct cost any cost, if other costs
incurred for the same purpose, in like circumstances, have been included in any F&A cost [i.e. indirect
cost] pool to be allocated to that or any other final cost objective.”




                                                            9
second and third recommendations, NIH said that the calculation of indirect cost rates and
ensuring the accuracy of these cost rates fall under the purview and responsibility of DCA.

NIH’s comments appear in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE TO
NATIONAL INSTITUTES OF HEALTH COMMENTS

After reviewing NIH’s comments, we modified our third recommendation but otherwise
maintain that all of our findings and recommendations remain valid.

Regarding the $952 in direct and indirect costs associated with training and administrative hours
that we questioned, we note that, as stated above in “Office of Inspector General Response to
Grantee Comments,” the grantee treated the costs as 100 percent indirect costs and also as 100
percent direct costs, which did not constitute a reasonable, allocable, and allowable expenditure
of public funds. Thus, the grantee did not exercise “special care [to] ensure that costs incurred
for the same purpose in like circumstances are treated consistently as either direct or F&A costs”
as mandated by 2 CFR pt. 220.

Regarding our second and third recommendations, our finding (the costs totaling $118,357 that
we set aside) pointed out that the grantee adjusted the two service centers’ indirect cost rates
using a methodology that did not conform to either Federal cost principles (2 CFR pt. 220,
Appendix A) or the grantee’s own policies and procedures. We acknowledge DCA’s role in the
calculation of indirect cost rates. NIH has ultimate responsibility, though, to determine the
allowability of grant costs and to ensure that claimed costs for which it is the cognizant Federal
agency comply with applicable rules and regulations. We note, too, that the grantee described
corrective actions that it implemented or planned to implement in response to these two
recommendations. With these facts in mind, we continue to recommend that NIH require the
grantee to develop and implement internal controls designed to ensure that the calculation of
service center indirect cost rates is in accordance with Federal requirements. We modified our
third recommendation to state that NIH should work with both DCA and the grantee to
determine both service centers’ correct indirect cost rates for the grantee’s 2010 and 2011 fiscal
years and resolve the allowability of the $118,357.




                                                10
APPENDIXES
                                                                                                                Page 1 of 3



                    APPENDIX A: GRANTEE COMMENTS




               STATE UNIVERSITY                                                 Controller's Department
                                                                                3607 Admmistrative Services Bldg. , Rm 1635
 O F SC IENCE AND TEC II NOLOGY
                                                                                Ames, Iowa 500 ll·3607
                                                                                515 294·2555
                                                                                 FAX 5 I 5 294-3401

November 14, 2012

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region VII
601 East 12'h Street, Room 0429
Kansas City, MO 64106

Re: Report Number: A-07-11-06024

Dea r Mr. Cogley:

Iowa State University (ISU) appreciates the opportunity to respond to t he November 1, 2012 draft audit
report for American Recovery and Reinvestment Act (ARRA) grant numbers 1RC2DA028879·01 and
5RC2DA028879·02 . ISU provides the following responses t o the Findings and Recommendations w ithin
the report. We ask that HHS ma inta in the confidentiality of the enclosed exhibits.

Finding 1#1:
The grantee claimed $4,328 i n unallowable salary and wage costs, consisting of $2,924 in direct costs
that were billed at an incorrect hourly rate, as well as $1,404 in associated indirect costs.

ISU Response to Finding 1#1:
On 7/29/2011, ISU sent spreadsheets to the aud itors to support a service center's rates for FYlO and
FY11 (see Exhibit A). The service cent er inadvert ently made some changes to the FY11 rate for one
employee when trying to improve the fo rmatting of the spreadsheet before it was se nt to the aud itors
on 7/ 29/ 2011. ISU detected the errors in the 7/ 29/ 2011 sp readsheet while preparing a response to
additio nal req uests from the audit ors in early October 2011. ISU sent a co rrected spreadsheet showing
t he actual hourly rat e for FYll to the aud it ors on 10/14/ 2011 (see Exh ibit B). After ISU received the
Objective Attributes Recap Sheet indicating the audit ors' position that ISU had bi lled at the incorrect
hourly rate, ISU sent an e-mail to the aud itors o n 1/ 24/2012 indicating that the auditors we re relying on
t he wrong spreadsheet (7 /29/2011 version) to support this condition (see Exhibit C) . Respectfully, this
condition should not be a finding as the auditors we re provided with corrected rate calculations that
support the actual ho urly rate charged in FY11 fo r this service center employee's wo rk.

Finding 1#2:
The grantee also claimed $2,535 in unallowable direct and indirect costs associated with 18 hours of
employee time for which the grantee could provide no supporting documentation and for which the
grantee made error in calculations.

ISU Response to Finding 1#2:
The Unive rsity has removed from the grant account the service center charges associated with hours of
employee time for w hich there is no supporting documentation.
                                                                                                                 Page 2 of 3





Finding #3:
Finally, the grantee claimed $952 in unallowable direct and indirect costs associated with 38 hours of
employee time that were dedicated to training and administrative functions. Because employee hours
dedicated to these functions are generally unallowable as direct costs, the grantee incorrectly billed for
$643 in direct costs as well as associated indirect costs of $309 which were also incorrectly charged and
claimed.

ISU Response to Finding #3:
Hou rly Content Coders performed the 38 hours of employee time at issue in this finding. The University
has removed $17.88 in service center charges for the Hourly Content Coders' 1.1 administrative hours
charged to the grant account. ISU respectfully disagrees that the Hourly Content Coders' training hours
are unallowable. These training hours were not incurred for general purpose training nor for
professional development. Section D.1 of OMB Circular A-2 1 states in part: " Direct costs are those costs
that can be identified specifically with a particular sponsored project..." The auditors' position that
these training hours should be considered unallowable as direct costs is not appropriate, as these
training hours can be identified specifically with, and provided benefi t to, this particular sponsored
project.

The training hours were included in the grant's approved budget and were detailed in the grant
application's budget justification for the Hourly Content Coders (see Exhibit D). The sponsored project
involved special ized coding. The Hourly Content Coders needed training o n how to perform this
specialized coding in order to carry out the project's protocols for generating project-specific
assessment s. ISU communicated to the aud itors on 2/15/12 that ISU believes the training hours of the
Hourly Content Coders should be considered as allowable direct costs to the grant (see Exhibit E). ISU
still maintains that belief.



The draft audit report recommends that NIH:

Recommendation #1:
Require the grantee to refund $5,290 in unallowable costs related to NIH Grants 1RC2DA028879-0l and
5RC2DA028879-02.

ISU Response to Recommendation #1:
As stated above, the University disagrees with Finding #1 and the training hours portion of Finding #3 .
ISU has removed the service center charges associated with Finding #2 and the administrative hours
portion of Finding 113 from the grant account .

Recommendation #2:
Require the grantee t o develop and implement internal controls designed to ensure that the calculation
of service cent er indirect cost rates is .in accordance with Federal requirements.

ISU Response to Recommendation #2:
The University established a Fee-for-Service Task Force in March 2012 that includes represent atives
from Business Services, Controller's Department, Sponsored Programs Administration, and University
Counsel. ISU wil l contribut e additional resources to review service center operations and provide
additional training to service center staff in order to strengthen the interna l control structure for service
centers.
                                                                                                          Page 3 of 3





Recommendation #3:
Work with the grantee to determine both service centers' correct indirect cost rates for the grantee's
2010 and 2011 FYs and resolve the allowability of $118,357.

ISU Response :
The University intends t o cooperatively work with NIH and provide supporting documentation t hat
meets the Federal requirements for the service center cha rges that were set aside by the auditors.

Recommendation #4:
Ensure that the grantee develops and implements a formal written policy that differentiates service
center types.

ISU Response:
The University agrees to develop and imp lement a written institutional policy that defines specialized
service facilities and recharge centers.

If you need any additional information, please contact me at 515-294-4414 or rjmusse@iastate.ed u.



Sincerely,


6edr)U~
Becky Musse lman
Associate Controller
Contro ller's Department
Iowa State University



Enclosures: Exhibits A thru E
                                                                                                               Page 1 of 3


    APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS



l/~          DEPARTMENT OF HEALTH &. HUMAN SERVICES                                  Public Health Service

~-·-.,~,_
                                                                                     National institutes of Health
                                                                                     Bethesda, Maryland 20892




       TO:           Patrick J. Cogley
                     Regional Inspector General for Audit Services, Region VII

       FROM:         Director, NIH

       DATE:           FEB 2 8 2013
       SUBJECT:      General Comments on Office of Inspector General Draft Report, Most ofthe
                     Costs Claimed by Iowa State University Under American Recovery and
                     Reinvestment Act of2009 Grant Numbers 1RC2DA028879-0J and
                     5RC2DA028879-02 Were Allowable (A-07-11-06024)

       Attached are the National institutes of Health's agency comments on the draft report, Most of
       the Costs Claimed by Iowa State University Under American Recovery and Reinvestment Act of
       2009 Grant Numbers 1 RC2DA028879-0I and 5RC2DA028879-02 Were Allowable
       (A-07-11-06024).

       We appreciate the opportunity to review and comment on the draft report. Should you have
       questions or concerns regarding our comments, please contact Meredith Stein in the Office of
       Management Assessment at 301-402-8482.




                                                   Francis S. Collins, M.D., Ph.D.

       Attachment:
       NIH General Comments on
        OIG Draft Report A-07-11-06024
                                                                                                    Page 2 of 3





GENERAL COMMENTS OF THE NATIONAL INSTITUTES OF HEALTH ON THE
DEPARTMENT OF HEALTH AND HUMAN SERVICES CHHS) OFFICE OF
INSPECTOR GENERAL (OIG) DRAFT REPORT ENTITLED, MOST OF THE COSTS
CLAIMED BY IOWA STATE UNIVERSITY UNDER AMERICAN RECOVERY AND
REINVESTMENT ACT OF 2009 GRANT NUMBERS 1RC2DA028879-01 AND
5RC2DA028879-02 WERE ALLOWABLE (A-07-11-06024)


The National Institutes of Health (NIH) appreciates the review conducted by the OIG and the
opportunity to provide clarifications on this draft report. We respectfully submit the following
general comments.

OIG Finding I: The 0/G recommends that NIH require Iowa State University to refund $952
in unallowable costs related to NIH grants 1RC2DA028879-01 and 5RC2DA028879-02
(page 8).

The NIH does not concur with the OIG's finding and corresponding recommendation regarding
the recovery of$952 in unallowable costs related to NIH grants I RC2DA028879-01 and
5RC2DA028879-02. The NIH, including the funding institute, the National Institute on Drug
Abuse, has reviewed the questioned costs and determined that they are allowable expenses, as
requested and approved in the original application. Training coders (content coders) code
research data, such as qualitative interview data. These costs are reasonable, allocable, and
allowable as a direct cost of doing research within the scope of this particular project.

0/G Finding 2: The OIG recommends that NIH require the grantee to develop and
implement internal controls designed to ensure that the calculation ofservice center indirect
cost rates is in accordance with federal requirements (page 8).

The NIH does not concur with the OIG's finding and corresponding recommendation that NIH
require the grantee to develop and implement internal controls designed to ensure that the
calculation of service center indirect cost rates is in accordance with federal requirements.
Calculation of indirect cost rates and ensuring the accuracy of these cost rates fall under the
purview and responsibilities of the HHS Division of Cost Allocation (DCA).

OIG Finding 3: The OIG recommends //tat NIH work with the grantee to determine both
service centers' correct indirect cost rates for tl1e grantee's 2010 and 2011 fiScal years and
resolve the allowabi/ity of $118,357 (page 8).

The NIH does not concur with the OIG's finding and corresponding recommendation that NIH
work with the grantee to determine both service centers' correct indirect cost rates for the
grantee's 2010 and 2011 fiscal years and resolve the allowability of$118,357. As stated in the
response to OIG finding #2, the determination of indirect cost rates is the responsibility of the
DCA.
                                                                                                 Page 3 of 3





GENERAL COMMENTS OF THE NATIONAL INSTITUTES OF HEALTH ON THE
DEPARTMENT OF HEALTH AND HUMAN SERVICES CHHS) OFFICE OF
INSPECTOR GENERAL (OIG) DRAFT R£PORT ENTITLED, MOST OF THE COSTS
CLAIMED BY IOWA STATE UNIVERSITY UNDER AMERICAN RECOVERY AND
REINVESTMENT ACT OF 2009 GRANT NUMBERS I RC2DA028879-0I AND '
SRC2DA028879-02 WERE ALLOWABLE (A-07-11-06024)


0/G Finding 4: Tile 0/G recommends tl10t NIH ensure til at tile grantee develops and
implements a formal written policy tllat differentiates service center types (page 8).

The NIH concurs with the OIG's finding and corresponding recommendation that NIH ensure
that the grantee develops and implements a formal written policy that differentiates service
center types. The NIH will ensure that the University develops and implements a formal written
policy that details the differences between types of service centers.




                                                                                         2
